<html>
<title> - H. RES. 245, PROVIDING FOR THE EXPENSES OF CERTAIN COMMITTEES OF THE HOUSE OF REPRESENTATIVES IN THE ONE HUNDRED SIXTEENTH CONGRESS; AND COMMITTEE RESOLUTION 116-09, A RESOLUTION TO APPROVE FRANKED MAIL ALLOWANCES FOR COMMITTEES FOR THE 116TH CONGRESS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 H. RES. 245, PROVIDING FOR THE EXPENSES OF CERTAIN COMMITTEES OF THE 
  HOUSE OF REPRESENTATIVES IN THE ONE HUNDRED SIXTEENTH CONGRESS; AND 
   COMMITTEE RESOLUTION 116	09, A RESOLUTION TO APPROVE FRANKED MAIL 
            ALLOWANCES FOR COMMITTEES FOR THE 116TH CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 25, 2019

                               __________

      Printed for the use of the Committee on House Administration

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Available on the Internet:
         https://www.govinfo.gov/committee/house-administration
         
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-548 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c4b4ab84a7b1b7b0aca1a8b4eaa7aba9ea">[email&#160;protected]</a>               
         

 
 H. RES. 245, PROVIDING FOR THE EXPENSES OF CERTAIN COMMITTEES OF THE 
  HOUSE OF REPRESENTATIVES IN THE ONE HUNDRED SIXTEENTH CONGRESS; AND 
   COMMITTEE RESOLUTION 116-09, A RESOLUTION TO APPROVE FRANKED MAIL 
            ALLOWANCES FOR COMMITTEES FOR THE 116TH CONGRESS

                              ----------                              


                         MONDAY, MARCH 25, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 7:15 p.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, Davis of Illinois, and 
Walker.
    Staff Present: Jamie Fleet, Staff Director; Eddie Flaherty, 
Director of Operations; Sean Jones, Legislative Clerk; David 
Tucker, Parliamentarian; Khalil Abboud, Deputy Staff Director; 
Veleter Mazyck, Chief of Staff, Office of Representative Fudge; 
Peter Whippy, Communications Director; Lisa Sherman, Chief of 
Staff, Office of Representative Susan Davis; Brandon Mendoza, 
Legislative Assistant; Evan Dorner, Office of Representative 
Aguilar; Julie Tagen, Chief of Staff; Laura Doney, Office of 
Representative Raskin; Jen Daulby, Minority Staff Director; 
Brittany Randall, Minority Professional Staff; Tim Monahan, 
Minority Professional Staff; Carson Steelman, Minority Staff 
Assistant, Office of Representative Walker; Courtney Parella, 
Minority Communications Director; and Susannah Johnston, 
Minority Legislative Assistant.
    The Chairperson. A quorum being present, the Committee will 
come to order, and I would like to thank the Members of the 
Committee for attending this evening, and we shall work as 
expeditiously as we can.
    Today we will consider H. Res. 245, The Primary Expense 
Resolution for the 116th Congress, and Committee Resolution 
116-09 to approve franked mail allowances for committees. The 
funding resolution represents a best effort between what is 
needed and what is available. In determining these 
authorizations, the Committee consulted with the Appropriations 
Committee to determine the most prudent overall amount, 
understanding that we are working under an appropriation that 
was enacted last fall.
    We have increased the amount available in the reserve fund 
for the second session to better enable this Committee working 
together, to meet new responsibilities of the committees', and 
to give us the ability to move quickly, assuming there is a new 
appropriation enacted this fall.
    It is my intention to work closely with Ranking Member 
Davis to reach agreement on expenditures from the reserve fund, 
and if, for some reason, we are not able to reach agreement, 
then it is my intention that expenditures will be subject to a 
vote of the Committee.
    In addition to considering the primary expense resolution, 
we will also consider Committee Resolution 116-09 to approve 
franked mail allowances for committees for the 116th Congress. 
This resolution enables committees to meet their incidental 
postal needs. These levels have proved more than sufficient in 
previous Congresses.
    I am now pleased to recognize our Ranking Member, Mr. 
Davis, for any opening statement he may have before we proceed 
to the business part of our meeting.
    Mr. Davis of Illinois. Well, thank you, Madam Chairperson. 
I would like to start by saying I appreciate the bipartisanship 
and the sensibility that I saw during this committee funding 
resolution process. The funding resolution that is being marked 
up today is a very reasonable one. It balances the reality that 
many of our committees need more resources to effectively do 
their work with the fact that we as an institution have to 
operate within our fiscal reality.
    When I first reviewed the budget request from our standing 
and select committees, it stood out to me that several 
committees were asking for increases of more than 15 percent, 
and in some cases, the asks were above 25 percent. As well-
intentioned as those requests might be, they are simply not 
reasonable or sustainable. What the majority is proposing 
equates to an average increase per committee of about 3.8 
percent. The resolution, as drafted, gives the largest 
percentage increase to the Ethics Committee for the purpose of 
updating the Ethics Manual, which I believe is a worthwhile 
endeavor that is long overdue.
    Additionally, I am pleased to see the inclusion of language 
that gives this Committee the authority to have Committee 
chairs and ranking members come before us to do a mid-Congress 
check-in on resource usage. This will give us the ability to 
make informed decisions on any needed adjustments in the second 
session.
    I must note one area of concern, and that is providing $3.7 
million to a committee that has no legislative authority, the 
Select Committee on the Climate Crisis. Any time we do not 
utilize our existing committee structure, we risk wasting 
valuable resources that could have been used more effectively.
    I would also like to call attention to the funding amount 
proposed in the Committee Reserve Fund for the second session 
of this Congress. It is $6.5 million, which is a considerable 
amount. This reserve will allow us flexibility to make 
additional resources available to committees, if needed, and I 
have been assured, as Madam Chairperson mentioned, that any 
funds allocated from the reserve will be done transparently by 
including discussions with the minority in advance.
    Finally, I must note that once again, the Appropriations 
Committee, the committee with the largest budget, is not part 
of this vital process of checks and balances that every 
othercommittee participates in.
    I know the appropriators are special, or at least that is 
what they all tell me, Mr. Aguilar. However, I think their 
inclusion in the committee funding resolution would make the 
process more whole. I support this resolution wholeheartedly, 
and I thank the Chairperson for her bipartisanship and her 
willingness to work with me and in spite of Mr. Aguilar being 
here as an appropriator. I, again, yield back.
    The Chairperson. Thank you, Mr. Davis. I will now call up 
H. Res. 245. And without objection, the first reading of the 
resolution is dispensed with, and without objection the 
resolution is considered as read and open for amendment at any 
point.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairperson. Does any Member wish to be recognized 
regarding H. Res. 245? If not, then I move that H. Res. 245 be 
reported favorably to the House. All those in favor reporting 
H. Res. 245 favorably to the House will say aye. Opposed will 
say no. In the opinion of the chair, the ayes have it. The ayes 
have it, and the motion will favorably report H. Res. 245 to 
the House is agreed to and the motion to reconsider is laid 
upon the table.
    I now call up Committee Resolution 116-09. Does any member 
wish to be recognized regarding Committee Resolution 116-09?
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Madam Chairperson.
    The Chairperson. Mr. Davis.
    Mr. Davis of Illinois. Thank you. I support this routine 
bipartisan resolution. This Committee has passed this 
resolution every Congress since the 109th Congress, and as the 
former chair of the Franking Commission, thank you to my co-
chair, Mrs. Davis. I am happy to support it again this year. It 
gives committees an appropriate amount to cover their franked 
mail costs, while establishing a reasonable limit to prevent 
any abuse. I look forward to continuing this bipartisan work on 
franking issues in the 116th Congress, and I yield back.
    The Chairperson. Thank you, Mr. Davis. Any other Member 
wish to be heard on this resolution? Seeing none, the question 
is on approving Committee Resolution 116-09. All in favor will 
say aye. Opposed will say no. In the opinion of the chair, the 
ayes have it. The resolution is agreed to, and the motion to 
reconsider is laid upon the table. Without objection, the staff 
is authorized to make technical and conforming changes. There 
being no further business, the Committee business meeting 
stands adjourned without objection. Thank you very much.
    [Whereupon, at 7:25 p.m., the Committee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
